Case No. 20-8050
In The

Supreme Court of the United States
________________________
JENNIFER VAN BERGEN, AKA,
GWENDOLYN STONE
Petitioner,
v.
SCOTT KOPPEL, DPM
Respondent.
________________________
On Petition for Writ of Certiorari Review
to the First District Court of Appeals
State of Florida
________________________
BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI
________________________
Joseph E. Brooks*
BROOKS LAW
2629 Mitcham Drive
Tallahassee, Florida,32308
850-201-0942
jeb@brookslawyers.net
Counsel for Respondent
*Counsel of Record

i
COUNTERSTATEMENT OF
QUESTION PRESENTED

Petitioner has alleged that her case
raises questions of great public importance
related to the medical expert affidavit
requirement of the Florida Malpractice Act.
However, there is no issue on appeal regarding
the constitutionality of any part of the Florida
Medical Malpractice Act. On the contrary, the
question presented is whether the trial court
erred in denying Petitioner’s Motion for Relief
from Judgment when she failed to timely file
her Notice of Appeal of the trial court’s Order
on Motion for Summary Judgment.

ii
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF QUESTION
PRESENTED…………………………………… i
TABLE OF AUTHORITIES……………………. iii
INTRODUCTION………………………………… 1
STATEMENT OF THE CASE………………….. 3
REASONS TO DENY THE PETITION
I.
Because
no
judgment
was
entered by a lower court as to the
constitutionality of §766.102(1)
Florida Statutes, Petitioner lacks
jurisdiction
for
this
Court’s
review……………….......................... 6
..
CONCLUSION ………………………………….... 9

iii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Diefenderfer v. Off. of Recovery Servs. for
State of Utah,
185 F.3d 873 (10th Cir. 1999)……………….7
Flanigan's Enters., Inc. of Georgia v.
City of Sandy Springs,
703 F. App'x 929, 938 (11th Cir. 2017)……..7
Flanigan's Enters., Inc. of Georgia v.
City of Sandy Springs,
138 S. Ct. 2623 (2018)…………………………7
United States v. Bestfoods,
524 U.S. 51, 72-73 (1998)……………………..6
United States v. McCall,
235 F.3d 1211, 1216 (10th Cir. 2000)……….6
STATE STATUTES
Fla. Stat. §766.102(1) (2015) …………………….2,3,6
STATE RULES
Florida Rule of Civil Procedure 1.540(b)(1)……….2,4
CONSTITUTIONAL PROVISIONS
28 U.S.C. § 1257(a)……………………………………..2

2
INTRODUCTION
Petitioner’s list of the questions presented
does not capture the issues posed, argued, or decided
in the proceedings in the courts below. Specifically,
the ruling from the trial court, and affirmed by the
Florida Court of Appeals, was that Petitioner was
not entitled to Relief from Judgment when she failed
to file a timely notice of appeal in the underlying
case.
The evidence nor arguments presented
pertaining to the Motion for Summary Judgment
from the trial court are part of the record on appeal.
According
to
Petitioner’s
jurisdictional
statement, jurisdiction is being invoked under 28
U.S.C. § 1257(a) which allows the Supreme Court to
review “final judgments or decrees rendered by the
highest court of a State…where the validity of a
statute of any State is drawn in question.” No
judgment or decree was rendered by any lower state
court in this case regarding the constitutionality of
§766.102(1), Florida Statutes. The only state statute
or rule briefed and argued on appeal was Florida
Rule of Civil Procedure 1.540(b)(1) regarding
Motions for Relief from Judgment.
Even so, Petitioner requests this Court to
review the Florida Medical Malpractice Act’s
requirement in Fla. Stat. §766.102(1) that says a
medical expert review is a prerequisite that must be
satisfied before a medical negligence claim can be
brought against a medical provider. Because these
questions, arguments, and attendant evidence have
never been part of the record on appeal, Petitioner’s
request for review should be denied.

3
STATEMENT OF THE CASE
1. STONE filed a lawsuit against KOPPEL
alleging she sustained damages arising out of
KOPPEL’s rendering of podiatry care associated with
the operative and post-operative care of STONE’s
right foot.
2. KOPPEL filed a Motion for Final Summary
Judgment in this case and argued that
STONE failed to comply with the presuit
requirements of §766.102(1) when she did not
provide expert testimony or an affidavit from
an expert to indicate that KOPPEL fell below
the standard of care provided by other
podiatrists in the community.
3. A hearing was had on KOPPEL’s Motion for
Final Summary Judgment on April 23, 2018.
4. Final Summary Judgment was entered by the
trial court on May 1, 2018.
5. STONE filed a Motion for Reconsideration on
May 15, 2018.
6. The Court entered an Order on June 12, 2018
denying the Motion for Reconsideration.
7. STONE then filed a Notice of Appeal on July
31, 2018 attempting to appeal the Order for
Final Summary Judgment and the Order
Denying Plaintiff’s Motion for Reconsideration
among other things.

4
8. STONE’s Notice of Appeal was not filed
within thirty days of the entry of either of the
above Orders and was therefore untimely.
9. STONE then filed a Motion for Relief from
Judgment on September 20, 2018 and
requested that a new Order be entered so her
right of appeal would be preserved. She
claimed that the basis for this was due to not
receiving timely notice of the entry of the
Order Denying her Motion for Reconsideration
under Florida Rule of Procedure 1.540(b)(1).
10. Initially, when STONE filed a Motion for
Relief from Judgment, the order denying relief
from judgment was entered by Judge Keim at
the trial court level without an evidentiary
hearing. STONE first filed an appeal with the
Florida Court of Appeals regarding said
nonfinal order and KOPPEL conceded error so
that an evidentiary hearing could be had.
Then the case was remanded back to Judge
Keim for the evidentiary hearing on the
Motion for Relief from Judgment only.
11. Before the evidentiary hearing was held,
Judge Keim recused herself after STONE filed
a Motion for Disqualification and Judge
Brasington was assigned the case.
The
evidentiary hearing was ultimately held on
November 19, 2019 in front of newly assigned
Judge Brasington solely on the issue of the
timeliness of STONE’s notice of appeal of the
Court’s Order Granting Summary Judgment.

5
The summary judgment ruling itself was not
at issue.
12. During that evidentiary hearing, STONE
presented no additional evidence for the
court’s consideration beyond her own
arguments.
No sworn testimony was
presented and no additional documentary
evidence was placed into the record.
Following the evidentiary hearing, the
underlying trial court upheld the ruling of the
circuit court denying relief from judgment.
The order denying STONE’s Motion for Relief
from Judgment likewise did not address in
any way the constitutionality of the Florida
Medical Malpractice Act. (Pet. App. C) An
Appeal to the Florida Court of Appeals
followed.
13. The Florida Court of Appeals Per Curiam
Affirmed the ruling of the trial court by Order
on February 9, 2021.
(Pet. App. A)
Subsequently, the Florida Court of Appeals
denied STONE’s Motion for written opinion
and certification on March 18, 2021. (Pet.
App. B)
14. STONE’s Petition for Writ of Certiorari
followed and raises issues not resolved or
addressed by the lower appellate court.

6
REASONS FOR DENYING THE PETITION
I.

Because no judgment was entered by a
lower court as to the constitutionality of
§766.102(1) Florida Statutes, Petitioner
lacks jurisdiction for this Court’s review

Petitioner, JENNIFER VAN BERGEN, aka,
GWENDOLYN STONE (STONE) has presented
three questions to this Court for consideration in her
Petition for Writ of Certiorari. All three questions
pertain to the constitutionality of the Florida
Medical Malpractice Act’s presuit medical expert
affidavit requirement. Of significance, none of these
three questions were at issue on appeal at the
Florida Court of Appeals. Because Petitioner is now
asking this Court to answer questions not previously
presented on appeal, the Petition fails to satisfy the
criteria for certworthiness, particularly given that
appellate review is defined by the record below.
Of importance, the absence of prior briefing on
these questions would significantly impede the
Court’s consideration of these issues, for it would not
have the benefit of arguments tested and refined in
the lower courts. (Cf. United States v. Bestfoods, 524
U.S. 51, 72-73 (1998)(declining to entertain an issue
on which the courts below did not focus) United
States v. McCall, 235 F.3d 1211, 1216 (10th Cir.
2000) (“The general rule is that this court will not
consider an issue on appeal that was not raised
below”) “The party seeking to raise the issue [on
appeal] must first present it to the [D]istrict Court in
a manner that allows the Court an opportunity to

7
recognize and rule on it.” Flanigan's Enters., Inc. of
Georgia v. City of Sandy Springs, 703 F. App'x 929,
938 (11th Cir. 2017), cert. denied sub nom.
Flanigan's Enters., Inc. of Georgia v. City of Sandy
Springs, 138 S. Ct. 2623 (2018) (internal quotation
and citation omitted); see also Diefenderfer v. Off. of
Recovery Servs. for State of Utah, 185 F.3d 873 (10th
Cir. 1999) (“Diefenderfer states that he made at least
a passing reference below, but we see nothing in the
record sufficient to raise the issue.”).
While Petitioner may have initially raised
these questions in the underlying circuit court case
in Response to Defendant’s Motion for Summary
Judgment, the Order that was appealed to the
Florida Court of Appeal was not the Order Granting
Summary Judgment. Rather, the Order appealed to
the Florida Court of Appeals was a circuit court
order denying Petitioner’s Motion for Relief from
Judgment. The underlying circuit court had granted
Dr. Scott Koppel’s (“KOPPEL”) Motion for Summary
Judgment, and when STONE failed to file a timely
appeal of the final judgment, she then filed the
Motion for Relief from Judgment and argued that,
because of an error, her Notice of Appeal was not
timely filed. Her Motion for Relief from Judgment
did not address the constitutionality of the Florida
Medical Malpractice Act. And it was this Order on
the Motion for Relief from Judgment that was the
subject of the appeal to the Florida Court of Appeals,
not the Order on Motion for Summary Judgment.
Whereas Petitioner has included the Order
Granting Summary Judgment as one of two

8
“relevant orders” for purposes of her petition, (Pet.
App. D.) said Order was never at issue on appeal.
The matters therefore under consideration by the
lower courts on appeal have only ever dealt with
whether STONE’s error in late filing the notice of
appeal was excusable. There has been no prior
argument, briefing, or consideration as to the
soundness of the trial court’s decision to grant
summary judgment in favor of KOPPEL.
It is clear from the record on appeal that,
despite Petitioner’s apparent belief that the
constitutionality of the Florida Medical Malpractice
Act should now be at issue before the United States
Supreme Court, such arguments or any of the
related evidence, are not appropriate to be presented
via a Petition for Writ of Certiorari.
Petitioner’s own Petition makes clear that she
is requesting that the United States Supreme Court
review the judgment identified in her petition. The
judgment identified was the Per Curiam Affirmed
opinion entered by the Florida Court of Appeals on
February 9, 2021 on the trial court’s Order denying
Motion for Relief from Judgment.
What Petitioner has filed is a 30-page Petition
for Writ of Certiorari that does not address the
Order on the Motion for Relief from Judgment except
to include it in the Appendix. Petitioner’s attempt to
present new issues related to the constitutionality of
the Florida Medical Malpractice Act at this time
should be quashed and the Petition for Writ of
Certiorari should be denied.

9
CONCLUSION
The Petition should be denied.

Respectfully Submitted,

Joseph E. Brooks*
BROOKS LAW
2629 Mitcham Drive
Tallahassee, FL 32308
850-201-0942
jeb@brookslawyers.net
Counsel for Respondent
*Counsel of Record
Dated: June 17, 2021

.

